No. 20-579
IN THE

Supreme Court of the United States
ZIMMIAN TABB,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit
BRIEF FOR THE
NATIONAL ASSOCIATION OF HOME BUILDERS
AND THE AMERICAN FARM BUREAU FEDERATION
AS AMICI CURIAE IN SUPPORT OF PETITIONER
CERTIFICATE OF SERVICE
I certify, as required by U.S. Supreme Court Rule 29.5(b), that on December 16,
2020, an electronic copy of the Brief for the National Association of Home Builders and the
American Farm Bureau Federation as Amici Curiae in Support of Petitioner was served
on all parties required to be served, and that counsel for every party below consented to
electronic service in accordance with the this Court’s Order dated April 15, 2020.

Signed on December 16, 2020

bumpy
________________________________
Evan A. Young
Counsel of Record

1

JOHN P. ELWOOD
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Avenue, N.W.
Washington, D.C. 20001
202.942.5992
john.elwood@arnoldporter.com
Counsel for Petitioner Zimmian Tabb
JEFFREY B. WALL
ACTING SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001
202.514.2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent United States of America

2

